Report No. D-2007-098         May 18, 2007




   The Use and Control of Intragovernmental
  Purchases at the Defense Intelligence Agency
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the
  Deputy Inspector General for Auditing at (703) 604-9142 (DSN 664-9142)
  or fax (703) 604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
D&F                   Determination and Finding
DIA                   Defense Intelligence Agency
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
GSA                   General Services Administration
MIPR                  Military Interdepartmental Purchase Request
O&M                   Operation and Maintenance
                                 INSPECTOR GENERAL

                                DEPARTMENT OF DEFENSE

                                   400 ARMY NAVY DRIVE

                              ARLINGTON , VIRGINIA 22202-4704



                                                                              May 18,2007

MEMORANDUM FOR DIRECTOR, DEFENSE INTELLIGENCE AGENCY

SUBJECT: Report on the Use and Control of Intragovernrnental Purchases at the Defense
         Intelligence Agency (Report No. D-2007-098)


     We are providing this report for review and comment. We considered management
comments on a draft of this report when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Defense Intelligence Agency comments were partially responsive. Therefore, we request that
the Director, Defense Intelligence Agency provide comments on Recommendations A.5. and
B.3.a., b., c., and d. by June 18, 2007 .

        If possible, please send management comments in electronic format (Adobe Acrobat
file only) to Auddfs@dodig.mil. Copies of the management comments must contain the
actual signature of the authorizing official. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

      We appreciate the courtesies extended to the staff. Questions should be directed to
Mr. Marvin (Leon) Peek at (703)325-5777 . See Appendix F for the report distribution. The
team members are listed inside the back cover.


                                  By direction of the Deputy Inspector General for Auditing:



                                          Paul Granetto , CPA

                                 Assistant Inspector General and Director

                                   Defense Financial Auditing Service

               Department of Defense Office of Inspector General
Report No. D-2007-098                                                       May 18, 2007
   (Project No. D2005-D000FA-0198.000)

           The Use and Control of Intragovernmental Purchases
                    at the Defense Intelligence Agency

                                 Executive Summary

Who Should Read This Report and Why? Defense Intelligence Agency (DIA)
program, acquisition, and financial management officials responsible for generating,
processing, and approving acquisition requirements and recording financial transactions
should read this report. This report provides insight on the importance of complying with
laws and regulations to ensure that procurements are in the best interest of the
Government and obtained in the most feasible and economical way.

Background. DoD uses a Military Interagency Purchase Request (MIPR) for
intragovernmental procurements within and outside of DoD. Other Federal agencies
requesting intragovernmental support for goods or services from DoD may use a
memorandum or other format. Congress became concerned about the interagency
procurement practices used by Federal agencies and stated in the Committee on Armed
Services Senate Report 109-69, “National Defense Authorization Act for Fiscal
Year 2006,” May 17, 2005, “in too many cases, when one agency uses a contract entered
by another agency, it appears that neither agency takes responsibility for making sure that
procurement rules are followed and good management sense is applied.” The committee
recommended that the DoD Inspector General determine whether the policies,
procedures, and internal controls are adequate to ensure compliance with Defense
procurement laws and regulations. This report discusses DIA compliance with laws and
regulations over intragovernmental procurements.

DIA is a combat support agency that produces, analyzes, and disseminates military
intelligence information. The overall mission of DIA is to conduct military intelligence
activities for the United States. From October 1, 2002, through June 30, 2005, available
records showed that DIA issued 2,058 intragovernmental procurement requests,
including modifications, totaling $1.5 billion. During the same period, DIA received
596 incoming procurement requests from other Government agencies, totaling
$222.4 million.

Results. DIA needs to improve acquisition-planning documentation and ensure funds
were properly used and accounted for correctly when using MIPRs for acquiring goods
and services. A review of 43 outgoing MIPRs, with 70 modifications, totaling
$405.1 million, disclosed that DIA did not adequately plan the acquisitions; may have
improperly used funds for the acquisitions; and did not properly record and account for
transactions in the accounting system. As a result, there was no reasonable assurance that
all the procurements were in the best interest of the Government. In addition,
seven potential Antideficiency Act violations exist for five MIPRs, totaling
$53.4 million, including modifications. DIA must initiate a preliminary review of each
identified potential Antideficiency Act violation to determine whether a violation
occurred. In addition, DIA needs to establish procedures and internal controls to improve
acquisition planning and oversight to ensure compliance with laws and regulations
governing acquisition and financial management (finding A).

In addition, the audit disclosed that DIA did not have adequate internal controls over
Economy Act orders received from other Federal entities. A review of 15 incoming
reimbursable Economy Act orders, valued at $30.3 million, disclosed that DIA did not:

       •	 promptly bill and collect for goods and services provided;
       •	 ensure that DoD was reimbursed for assigned military personnel detailed to
          non-DoD organizations;
       •	 promptly return unneeded funds to the requesting agencies;
       •	 establish and collect contracting fees in support of contracting services for
          reimbursable orders; and
       •	 accept Economy Act orders in writing.

As a result, DIA could not provide reasonable assurance that it effectively used and
administered intragovernmental orders in compliance with applicable laws and
regulations. DIA needs to implement adequate controls and ensure compliance with
established polices and procedures over the reimbursable processes (finding B). We also
reviewed the managers’ internal control program as it related to controls over
intragovernmental purchases and consider the weaknesses discussed to be material. See
the Findings section of the report for the detailed recommendations.

Management Comments and Audit Response. The DIA Chief Financial Executive
nonconcurred with some of the wording in our findings related to the use of funds, and
we made some minor revisions to the report based on her comments. However, she
concurred with the recommendations related to acquisition planning, preliminary reviews
for potential Antideficiency Act violations, and procedures for obligating and
deobligating funds. The DIA Chief Financial Executive nonconcurred with both the
finding and the recommendation to record the payments that DIA makes in advance for
reimbursable orders as assets. The DIA comments reflect a misunderstanding of
generally accepted accounting principles, and we request that the DIA Chief Financial
Executive provide additional comments in response to the final report.

The DIA Chief Financial Executive concurred with the recommendations related to
controls over incoming interagency orders except for the recommendation that DIA
should charge organizations receiving contracting services from the DIA contracting
office. She commented that DIA billing for such services would amount to
supplementing DIA appropriations, which is not allowed. However, DoD Regulation
7000.14-R, volume 11A, requires costs incurred for contracts awarded as part of a
reimbursable agreement to be billed to the benefiting organization. Although DIA
concurred with recommendations related to reimbursement for military detailees to other
organizations and the necessity for approving in writing all intragovernmental orders, her
responses did not satisfy the intent of the recommendations.




                                            ii
We request that the Director, DIA provide comments on the final report by June 18,
2007. See the Finding section of the report for a discussion of management comments
and the Management Comments section of the report for the complete text of the
comments.




                                          iii
Table of Contents 


Executive Summary                                                    i


Background                                                           1


Objectives                                                           2


Review of Internal Controls                                          2


Findings
     A. Use of MIPRs for the Procurement of Goods and Services       4

     B. Internal Controls over Incoming Economy Act Orders          15 


Appendixes
     A. Scope and Methodology                                       22 

     B. Prior Coverage                                              23 

     C. Summary of Deficiencies for Outgoing MIPRs Reviewed         24 

     D. Questionable Use of Appropriation Cited on MIPRs            26 

     E. Summary of Deficiencies for Incoming Economy Act Orders 

          Reviewed                                                  27
     F. Report Distribution                                         28 


Management Comments
     Defense Intelligence Agency                                    29 

Background 

    Defense Intelligence Agency. The Defense Intelligence Agency (DIA) mission
    is to provide timely, objective, and cogent military intelligence to warfighters,
    Defense planners, and Defense and national security policymakers. DIA is a DoD
    combat support agency that collects, analyzes, and disseminates military
    intelligence information. DIA is the nation’s primary producer of foreign military
    intelligence. It serves as the central DoD intelligence manager to support the
    requirements of the Secretary of Defense, the Joint Chiefs of Staff, and the
    warfighter.

    DoD Policy on Interagency Agreements. DoD Instruction 4000.19,
    “Interservice and Intragovernmental Support,” August 9, 1995, implements the
    policies, procedures, and responsibilities for support agreements between U.S.
    Government organizations. The instruction states that DoD organizations may
    provide support to other DoD organizations when the head of the requesting
    organization determines it is in the best interest of the Government, and the head
    of the supplying organization determines that providing the support will not
    jeopardize its own mission. The instruction also states that DoD organizations
    may enter into support agreements with non-DoD Federal organizations when
    funding is available to pay for the support, it is in the best interest of the U.S.
    Government, the supplying activity is able to provide the support, and the support
    cannot be provided as conveniently or inexpensively by a commercial enterprise.

    Management of Interagency Contracting. Senate Report 109-69, “National
    Defense Authorization Act for Fiscal Year 2006,” May 17, 2005, states that the
    DoD is by far the largest user of interagency contracts. The Senate Report further
    states that DoD:
           does not have an adequate system to track such basic information as
           who is using these contracts, what they are buying, and how much they
           are paying. In too many cases, when one agency uses a contract
           entered by another agency, it appears that neither agency takes
           responsibility for making sure that procurement rules are followed and
           good management sense is applied. The Department of Defense
           Inspector General, the GSA [General Services Administration]
           Inspector General, and others have identified a long series of problems
           with interagency contracts, including lack of acquisition planning,
           inadequate competition, excessive use of time and materials contracts,
           improper use of expired funds, inappropriate expenditures, and failure
           to monitor contractor performance.

    In the past several years, the Senate Armed Services Committee enacted
    legislative initiatives designed to address these problems.

    Interagency Orders. United States Code, title 31, section 1535 (31 U.S.C.
    1535), “Agency Agreements,” known popularly as the Economy Act, authorizes
    the head of a Federal agency to place an order with another Federal agency for
    goods and services if those goods or services are available, it is in the best interest
    of the U.S. Government, the other agency can fill the order, and the order cannot
    be provided as conveniently or cheaply by contract with commercial enterprise.
                                             1

           The Economy Act applies when more specific statutory authority does not exist.
           DoD Regulation 7000.14-R, “Financial Management Regulation,” volume 11A,
           chapter 3, “Economy Act Orders,” April 2000, implements the policies and
           procedures for Economy Act transactions.

           A Military Interdepartmental Purchase Request (MIPR), DD Form 448, and
           MIPR Acceptance, DD Form 448-2, are the primary documents used by DoD
           agencies to order goods and services from other DoD agencies, as well as
           non-DoD agencies. Available records showed that from October 1, 2002, through
           June 30, 2005, DIA issued 2,058 MIPRs procurement requests, including
           modifications, totaling $1.5 billion. During the same period, DIA received
           596 incoming interagency orders from other Government agencies totaling
           $222.4 million.


Objectives
           Our overall audit objective was to determine whether DIA was in compliance
           with applicable laws and regulations related to the use and control of interagency
           agreements. Specifically, we assessed the practices used by DIA to provide and
           monitor funding to and from other Defense and non-Defense agencies for
           acquiring goods and services. We determined whether DIA implemented
           adequate procedures for issuing, recording, reviewing, and reporting interagency
           agreements. We also reviewed the Management Control Program as it related to
           the overall objective. See Appendix A for a discussion of the Scope and
           Methodology and Appendix B for Prior Coverage.


Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996 require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls. 1
           Scope of the Review of the Managers’ Internal Control Program. We
           reviewed the adequacy of DIA internal controls over intragovernmental
           purchases. Specifically, we reviewed DIA internal controls over the acquisition
           and financial management processes for intragovernmental purchases. We also
           reviewed the adequacy of management’s self-evaluation of those controls.


1
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on
    January 4, 2006.
                                                    2

Adequacy of Internal Controls. DIA had internal control weaknesses in
managing interagency agreements that we consider to be material. We identified
material internal control weaknesses in the way DIA plans, funds, and records
MIPRs in the accounting system. DIA internal controls for generating,
processing, and approving acquisition requirements; processing of incoming
reimbursable orders; as well as recording financial transactions were not adequate
to prevent potential Antideficiency Act violations and ensure that the
procurements were in the best interest of Government. Recommendations A.1.,
A.2., A.4. through A.6., and B.1. through B.3, if implemented, will help correct
the identified weaknesses.

Adequacy of Management’s Self-Evaluation. In complying with the Federal
Managers’ Financial Integrity Act requirement for FY 2006, DIA considered the
MIPR acquisition and financial management processes as assessable units.
However, DIA did not consider the deficiencies reported in this report as material
internal control weaknesses in its annual statement of assurance. (Note that the
deficiencies discussed in our report are related to interagency agreements
executed prior to FY 2006.)




                                    3

            A. 	Use of MIPRs for the Procurement of
                Goods and Services
            DIA did not always use MIPRs properly for acquiring goods and services.
            Specifically, our review of 43 outgoing MIPRs, with 70 modifications,
            totaling $405.1 million disclosed that DIA:

                     •	 did not adequately plan the acquisitions,

                     •	 may have improperly used funds when using MIPRs, and

                     •	 did not properly record and account for transactions in its
                        accounting system.

            These conditions occurred because DIA did not always comply with
            established criteria for the procurement of, and accounting for, goods and
            services. In addition, DIA did not have adequate internal control over the
            acquisition planning and financial management processes relating to
            MIPRs. As a result, there was no reasonable assurance that all the
            purchases made were in the best interest of the Government. In addition,
            we found seven potential Antideficiency Act violations for five MIPRs,
            including modifications, totaling $53.4 million.


Acquisition Planning
     DIA did not adequately plan its acquisitions for goods and services using MIPRs.
     The Federal Acquisition Regulation (FAR) 7.102(b), “Policy,” requires agencies
     to perform acquisition planning for all acquisitions:
            This planning shall integrate the efforts of all personnel responsible for
            significant aspects of the acquisition. The purpose of this planning is
            to ensure that the Government meets its needs in the most effective,
            economical, and timely manner.

     Our review of a judgmental sample of 43 outgoing MIPRs with 70 modifications,
     totaling $405.1 million, showed that prior to the issuance of the MIPRs, DIA did
     not always:

            •	 develop written acquisition plans, which addressed the total cost of the
               requirements and the criteria for acceptance of goods and services;

            •	 make cost comparisons between contractor and Government
               performance of services; and

            •	 completely prepare the required determination and finding
               documentation.

                                                4

           As a result, there was no reasonable assurance that the purchases made were in
           the best interest of the Government. (See Appendix C for a listing of the specific
           deficiencies associated with each MIPR.)

           Written Acquisition Plans. Thirty-one of the 43 outgoing MIPRs reviewed
           exceeded the $1 million requirement 1 for a written acquisition plan. DIA did not
           prepare the required plans for 28 MIPRs, and the 3 prepared written acquisition
           plans were incomplete and not signed. Appendix C shows the specific MIPRs
           and modifications that did not have the required written acquisition plans.

           DIA Manual 44-2, “Acquisition,” July 2001 requires documentation of a written
           acquisition plan for all MIPRs estimated at $1 million or more. An acquisition
           plan should include the total estimated cost with all options, period of
           performance, criteria for acceptance of goods and services, and coordination and
           approval signatures. In addition, FAR 7.105, “Contents of Written Acquisition
           Plans,” requires that the acquisition plan describe the basis for establishing
           delivery or performance period requirements, acceptance criteria for all required
           deliverables, and the performance standards for anticipated services.

                   Total Cost. DIA did not consider the total cost of the requirements,
           which includes options years, when determining if a written acquisition plan was
           required. Although we did not quantify the amount, we noticed during the audit
           that each year DIA issued some MIPRs to the same organizations for the
           continuous requirements.

                   For example, DIA issued MIPR HHM402-4-2000, totaling $9.1 million, to
           the Army Intelligence and Security Command, for linguistic support services.
           The stated purpose of the MIPR was to extend another MIPR, totaling
           $6.6 million, for 4 months. DIA later amended MIPR HHM402-4-2000 by
           adding an additional $9.6 million to extend the performance period for 6 months
           for a total of $25.3 million for linguistic support. However, the acquisition plan
           for the MIPR was incomplete because DIA did not consider recurring
           requirements. In addition, no one signed the acquisition plan; a signature would
           have indicated coordination with and approval of individuals responsible for
           significant aspects of the acquisition. DIA stated in the acquisition plan that
           market research revealed that this service is readily available on the GSA
           schedule and the best approach would be to procure the services from the
           schedule. Instead of DIA procuring the services itself, DIA requested that the
           Army Intelligence and Security Command procure the linguist services on its
           behalf. As a result, there was no reasonable assurance that all of the $25.3 million
           that DIA sent to the Army Intelligence and Security Command was in the best
           interest of the Government.

                    Acceptance of Supplies or Services. DIA did not address the criteria for
           the acceptance of supplies or services in the three prepared acquisition plans.
           FAR 7.105 (g) requires that the acquisition plan describe the basis for establishing
           delivery or performance period requirements, which provide acceptance criteria
           for all required deliverables and performance standards for anticipated services.
           Furthermore, FAR 46.502 stipulates that the contracting officer or the cognizant
1
    This includes same year modifications.

                                                5

          contract administration office is responsible for the acceptance of supplies or
          services. For example, DIA sent approximately $161 million to the Army Field
          Support Command at Rock Island Arsenal for the Iraq Survey Group without a
          written acquisition plan. Rock Island Arsenal issued contract modification
          number 56, which included 17 amendments, to its existing Logistics Civil
          Augmentation Program contract with a division of Kellogg, Brown & Root, Inc.

          Our sample only included $98 million of the $161 million of MIPRs that DIA
          used to procure goods and services for the Iraq Survey Group. However, neither
          the DIA Program Office nor the Rock Island Arsenal Contracting Officer could
          provide any supporting documentation that demonstrated acceptance of supplies
          or services provided under the contract. Instead, the Defense Finance and
          Accounting Service paid the contractor invoices based on provisional approval by
          the Defense Contract Audit Agency without any acceptance or receipt of goods
          and services by the contracting officer or the cognizant official. As a result, there
          was no reasonable assurance that DIA received all the $161 million of goods and
          services that it sent to the Army Operations Support Command. In addition, the
          MIPRs did not provide enough information to determine what was actually being
          procured.

          Cost Comparisons. DIA did not make cost comparisons between contractor and
          Government performance of services for 4 of the 43 MIPRs reviewed. DIA
          issued 4 MIPRs and 14 modifications, totaling $161.2 million, to Warner Robins
          Air Logistics Center for the procurement of information technology services from
          General Dynamics Corporation under the Economy Act. Attached to the
          procurement request was a document that stated the request was for acquiring
          services and outside technical support through the existing Intelligence
          Information Processing and Production contract; and therefore, an Advance
          Acquisition Plan was not required. However, there was no evidence in the files
          that indicated that DIA complied with the cost comparison requirement in FAR
          Subpart 7.3. Therefore, there was no reasonable assurance that purchases totaling
          $161.2 million were in the best interest of the Government.

          DoD Regulation 7000.14-R, volume 11A, chapter 3, states that acquisitions under
          the Economy Act are subject to the requirements of FAR Subpart 7.3, “Contractor
          Versus Government Performance,” which requires agencies to consider the
          relative cost in deciding between Government and contractor performance. In
          making the cost comparisons, agencies should prepare an estimate of the cost of
          Government performance based on the same work statement and level of
          performance and compare the total cost of Government performance to the total
          cost of contracting.

          Determination and Finding. DIA issued 41 of the 43 1 outgoing MIPRs
          reviewed, totaling $400.9 million, under the Economy Act. Of the 41, DIA
          prepared a determination and finding (D&F) for only 21 MIPRs, totaling
          $226.2 million. FAR Subpart 17.5, “Interagency Acquisitions Under the
          Economy Act,” and DoD Regulation 7000.14-R, volume 11A, chapter 3, require a
          D&F document to support each Economy Act order. The D&F must find that the

1
    DIA issued the remaining two outgoing MIPRs to GSA under the Clinger-Cohen Act.
                                                   6

    use of interagency support capabilities is in the best interest of the Government
    and that the required goods, supplies, or services cannot be obtained as
    conveniently or economically by contracting directly with a private source. In
    addition, the FAR requires that a contracting officer or designated official
    approve the D&F. However, only 3 of the 21 D&F documents were signed. As a
    result, there was no reasonable assurance that the Economy Act orders DIA
    issued on 38 MIPRs (totaling $400.5 million) for purchases were in the best
    interest of the Government.


Use of Funds
    DIA did not properly manage its financial resources. Specifically, DIA:

           •	 may have inappropriately used the Operation and Maintenance (O&M)
              appropriation to fund four MIPRs and two modifications for
              purchases, totaling $45.4 million;

           •	 obligated funds totaling $8 million on a MIPR in apparent violation of
              the Bona Fide Needs statute; and

           •	 issued 15 MIPRs and 16 modifications, totaling $252.6 million,
              without adequate documentation to show that the funds were available.

    DoD Regulation 7000.14-R, volume 14, chapter 1, requires DoD organizations to
    maintain internal control systems to ensure that all proposed obligations of funds
    are reviewed. The reviews are to ensure that sufficient funds are available to
    cover the obligation, that the purpose of the obligation is consistent with the
    authorized purposes of the fund, and that the obligation does not violate any
    special or recurring provisions and limitations on the incurrence of obligations to
    prevent Antideficiency Act violations.

    Appropriation Purpose. DIA transferred funds for procurements that appear to
    be out of the scope for the purpose of the appropriation. Specifically, DIA may
    have inappropriately used the O&M appropriation to fund four MIPRs (and
    two modifications) totaling $45.4 million (Appendix D). DoD annual
    appropriations acts define the uses of each appropriation and establish specific
    timelines for the availability of the funds. O&M appropriations are used to fund
    expenses incurred in continuing operations and current services and are available
    for obligation for one year. DoD Regulation 7000.14-R and 10 U.S.C. 2805
    prohibit entities from funding unspecified minor military construction projects
    costing more than $750,000 from the O&M appropriation without prior approval
    from the secretary concerned. Additionally, DoD Regulation 7000.14-R,
    volume 11A, chapter 3, states that Economy Act orders must be specific, definite,
    and certain both as to the work encompassed by the order and the terms of the
    order itself. However, DIA did not maintain in their acquisition files adequate
    documentation to justify the appropriation that was used to fund the four MIPRs
    (and two modifications). Therefore, we could not determine whether the MIPRs
    complied with 31 U.S.C. 1301, “Application,” which states that appropriations
    must be applied only to the objects for which the appropriations were made

                                         7

except as otherwise provided by law. As a result, DIA may have violated the
Antideficiency Act for $45.4 million.

Bona Fide Needs. DIA obligated $8 million for the purchase of office furniture
in an apparent violation of 31 U.S.C. 1502(a), “Balances Available,” sometimes
called the Bona Fide Needs statute. This statute requires that the balance of an
appropriation or fund limited for obligation to a definite period is available only
for payment of expenses properly incurred during the period of availability or to
complete contracts properly made within that period of availability. The DoD
Regulation 7000.14-R, volume 11A, chapter 3, which incorporates the Bona Fide
Needs statue, requires that Economy Act orders citing an annual or multiyear
appropriation serve a need that existed in the fiscal year for which the
appropriation is available for obligation. On March 24, 2004, DIA issued MIPR
HHM402-4-0272, totaling $8 million, to the GSA Federal Supply Services under
the Economy Act. Prior to acceptance, GSA requested a correction in the
description of the procurement to include the statement, “Expect to start
procurement in January 2005.” GSA faxed the MIPR to the DIA acquisition
office, which made the changes and faxed the MIPR back to GSA without routing
the changes through the DIA accounting office. On March 31, 2004, the GSA
accepted the MIPR on a reimbursable basis, and DIA obligated the funds at that
time. Because the procurement was not going to begin until January 2005, when
the O&M funds were no longer available for obligation, this MIPR violated
31 U.S.C. 1502(a) and DoD regulation. As a result, an $8 million violation of the
Antideficiency Act may have occurred.

Availability of Funds. DIA certified that the funds were available for the
procurement and issued 15 MIPRs and 16 MIPR modifications totaling
approximately $252.6 million under an “IOU” concept. DIA accounting
personnel annotated the purchase requests for the MIPR stating: “insufficient
funds,” “IOU needed,” or “IOU authorized.” There was no documented evidence
to indicate when and where the funds were coming from to cover the
procurements. DIA use of the IOU concept could result in Antideficiency Act
violations if DIA incurred obligations prior to the funding being available. For
example, DIA issued two MIPRs, on separate days to different activities, totaling
approximately $44.9 million, using the IOU concept. For both MIPRs, the IOU
and the MIPR issuance and acceptance occurred on the same day. The activities
accepted the MIPRs as direct cite, which meant that DIA appropriation would be
cited directly on the contract, and the Government would incur an obligation upon
the issuance of a signed contract. One of the activities issued a signed contract to
fulfill the MIPR on the same day they accepted it, thus creating an obligation.

DIA did not have written procedures for the IOU process. To further understand
the IOU concept, we requested that DIA provide the governing policy and
procedures for the IOU funding process. The DIA Deputy Comptroller explained
the IOU funding process in a written response. He stated that because of system
constraints, sometimes funding is not aligned in the funded organization or object
class when target changes are requested. In order to override the accounting
system and process the purchase request, the DIA budget analyst validates that
funds are available prior to initiating the change and approves the IOU to keep the
process moving, because target changes are only made about every 2 weeks.

                                     8

    Because the transactions we reviewed occurred in prior years, we did not perform
    exhaustive analysis to determine whether funds were actually available.

    However, DoD Regulation 7000.14-R, volume 14, chapter 2, states that an
    Antideficiency Act violation may occur when obligations authorized or incurred
    or expenditures made exceed the available amount of any administrative
    subdivision of funds. Therefore, DIA must have the funds available when a
    MIPR was accepted on reimbursable basis and when DIA funds were cited
    directly on a contract. An absence of adequate documentation indicating the
    funds availability prior to establishing an obligation could facilitate violations of
    the Antideficiency Act. DIA should discontinue using this practice.


Recording Accounting Transactions
    DIA improperly recorded transactions in the accounting system relating to MIPRs
    issued under the Economy Act. Specifically, DIA incorrectly recorded payments
    it made in advance for goods or services. In addition, we were unable to
    determine if DIA deobligated funds as required by the Economy Act.

    Advanced Payments. DIA paid $9.6 million for goods and services in advance
    for 6 of the 43 MIPRs in our sample. However, it recorded the transactions in the
    accounting system as expenses prior to receiving goods or services (see
    Appendix C for a list of the MIPRs). For example, on December 23, 2004, DIA
    issued MIPR HHM402-5-0157 for $4.6 million to the Air Force to acquire
    systems engineering expertise for 1 year from the date of acceptance. The Air
    Force office immediately requested advanced payment, which the disbursement
    station paid on January 21, 2005. DIA recorded the transaction in the accounting
    system as an expense instead of recording the payment as an advance.

    DoD Regulation 7000.14-R, volume 11A, chapter 3, states that for Economy Act
    orders, payment may be made in advance for any part of the estimated or actual
    cost as determined by the agency or unit filling the order. However, DoD
    Regulation 7000.14-R, volume 4, chapter 5, requires DoD Components making
    such advances to record them as assets, a separate line on the financial statement,
    until receipt of the goods or services. When the goods or services are received,
    the expense or acquired asset should be recognized, and the advances reduced.

    Deobligation of Funds. We were unable to determine if DIA deobligated funds
    as required by the Economy Act. DIA issued 41 of the 43 MIPRs sampled,
    totaling $400.9 million, under the Economy Act. DoD Regulation 7000.14-R,
    volume 11A, chapter 3, and 31 U.S.C. 1535 state that for Economy Act orders,
    funds must be deobligated to the extent that the servicing agency has not entered
    into an authorized contract with another entity to provide the requested goods or
    services before the end of the appropriation availability. The documentation DIA
    provided did not show any deobligation as required under the Economy Act. As a
    result, there was no reasonable assurance that DIA complied with the deobligation
    requirement under the Economy Act. Failure to deobligate such funds could lead
    to Antideficiency Act violations.


                                          9

Conclusion 

          DIA needs to improve the acquisition planning and the financial management
          processes for acquiring goods and services through the issuance of MIPRs. DIA
          had not identified the MIPR processes as assessable units within its management
          control program. If DIA had established adequate controls and assessed the
          internal controls for the acquisition planning and financial management processes
          relating to outgoing MIPRs, it might have identified the improper use of MIPRs
          and the potential Antideficiency Act violations.

          “The federal government has a responsibility and an obligation to American
          citizens to be a good financial steward of and properly account for their tax
          dollars.” 1 Adequate internal controls are critical to ensuring that MIPRs are
          managed and accounted for properly. The lack of adequate internal control over
          the MIPR process and accounting resulted in potential violations of the
          Antideficiency Act, violations of public law, and noncompliance with Federal,
          DoD, and DIA guidance. DIA should improve internal controls over the MIPR
          process by developing compliant policies and adequate guidance. It should also
          develop internal controls to ensure established guidance and policies are
          followed.


Management Comments on the Report and Audit Response
          DIA Comments and Audit Response on the Review of Internal Controls.
          DIA nonconcurred with our Review of Internal Controls section, which stated that
          DIA had material internal control weaknesses “as defined by DoD Instruction
          5010.40” because the Instruction states that “it is management’s judgment
          whether or not a weakness is deemed material.” We removed the reference to the
          DoD Instruction and stated that we consider the weaknesses to be material. DIA
          also nonconcurred with our statement that it did not identify the acquisition and
          financial management processes for intragovernmental purchases as assessable
          units for 2006. We revised the report to reflect their comments. The scope of our
          review did not include FY 2006 transactions. However, we note that the FY 2006
          statement of assurance did not include the deficiencies included in our report as
          material internal control weaknesses.

          DIA Comments and Audit Reponse on the Use of Funds. DIA nonconcurred
          with our use of the word “procurements” to characterize purchases totaling
          $45.4 million. To clarify DIA comments, we discussed the wording with DIA
          personnel, who stated that they understood the word “procurements” to mean use
          of DoD Procurement Appropriation funds. Therefore, we changed the word to
          “purchases.” Our report did not state what type of funding should have been used
          for the purchases. However, available information suggests that the use of O&M


1
    GAO Accounting and Information Management Division, “Reliable Financial Information: A Key to
    Effective Program Management and Accountability,” January 1997.
                                                  10 

funds may not have been appropriate. DIA stated that it is investigating each
transaction to substantiate the allegations.

DIA Comments on Possible Violation of Bone Fide Needs Statute. DIA
nonconcurred that it obligated $8 million on a MIPR “in apparent violation of the
Bona Fide Needs statute” because its preliminary review showed that the
obligation was to acquire items to satisfy a current need. DIA suggested that we
state that the purchase “may violate the Bona Fide Needs statute.”

Audit Response. The Bona Fide Needs statute is not based solely on whether a
specific item is needed during the year that funds are obligated. According to the
“Principles of Federal Appropriations Law,” volume I, (GAO [Government
Accountability Office] Red Book), in order to obligate current year funds when
payments are to be made in the following fiscal year, the contract imposing the
obligation must be awarded during the fiscal year that the funds are available for
obligation. In the example cited in our report, GSA specifically stated that it
would not be able to start procuring the requested furniture until January of the
following fiscal year. Thus, using the prior year funds appears to have violated
the Bona Fide Needs statute.

DIA Comments on the Discussion of the “IOU” Concept. DIA nonconcurred
with our conclusion regarding its use of the “IOU” because we implied that DIA
issued MIPRs without adequate funds available.

Audit Response. Our conclusion was that there was no evidence that funding
was available. We could not determine whether funding was available for the
purchases, which occurred in FYs 2004 and 2005. Our report included the DIA
assertion that “the DIA budget analyst validates that funds are available prior to
initiating the change and approves the IOU.…” However, that statement is not
documentation that funds were available. DIA concurred with our
recommendation to discontinue use of the IOU process. Therefore, additional
discussion concerning whether or not funds were actually available is not
necessary.

DIA Comments on Advanced Payments. DIA nonconcurred that the
$9.6 million described in the report as payments in advance was actually advance
payments. According to the DIA General Counsel, “the type of ‘advance
payment’ discussed in the audit report, acceptance by the receiving agency of a
MIPR, does not appear to comport with the definition of ‘advance payment’ cited
in the GAO Red Book.” The DIA General Counsel further stated that it appears
that all of the DIA MIPRs were funded by either direct or reimbursable funds, and
there was no need for the servicing agency to make a billing. Therefore, the
requirement to record advance payments in accordance with DoD Regulation
7000.14-R, volume 4, chapter 5, does not apply to the DIA MIPR transactions.

Audit Response. The comments by the DIA General Counsel suggest a
misunderstanding of generally accepted accounting principles. Both the
Statement of Federal Financial Accounting Standards No. 1, March 30, 1993, and
DoD Regulation 7000.14-R state that payments made in advance should be
recorded as assets. See Recommendation A.5 for additional details.


                                     11 

Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Director, Defense Intelligence Agency:

           1. Develop and maintain written acquisition plans for
    intragovernmental procurements when the total procurement cost, including
    option years, equals or exceeds the established threshold for preparing
    written acquisition plans. Also, ensure each plan considers the criteria for
    the acceptance of goods and services and requires signatures for
    coordination and approval.

    Management Comments. The DIA Chief Financial Executive concurred and
    stated that DIA Manual 44-2 already requires documentation of a written
    acquisition plan. DIA has a number of subject matter experts recently under
    contract who are working with various DIA directorates to review all
    procurement requirements to ensure that adequate documentation is prepared,
    including written acquisition plans. In addition, during the annual risk
    assessment, the Acquisition Executive directorate (AE) determined that the DIA
    MIPR process was a risk area and is transferring the MIPR process back to the
    Chief Financial Executive (FE) directorate to mitigate the risk.

           2. Establish procedures and controls to ensure that procurements
    using the Economy Act are in the best interest of the Government.
    Specifically:

                 a. Require that cost comparisons between contractor and
    Government performance for goods and services be prepared prior to
    contracting.

                  b. Prepare the required determination and finding and ensure
    that the approval is documented.

    Management Comments. The DIA Chief Financial Executive concurred and
    stated that all outgoing MIPRs will be reviewed to ensure that the required cost
    comparisons have been performed. In addition, all MIPRs will include a written
    D&F, which will be reviewed by DIA contracting officers prior to release.

           3. Conduct a preliminary review for the six potential Antideficiency
    Act violations, listed in Appendix D, involving the inappropriate use of
    the Operation and Maintenance appropriation. Also, review
    MIPR HHM402-4-0272 for potential violation of the Bona Fide Needs statute
    in compliance with the reporting requirements in DoD Regulation 7000.14-R,
    volume 14, “Administrative Control of Funds and Antideficiency Act
    Violations.” Provide a copy of the preliminary review report to the DoD
    Office of Inspector General.



                                       12 

           Management Comments. The DIA Chief Financial Executive concurred and
           has initiated preliminary reviews for the six * potential Antideficiency Act
           violations. The reviews will be completed within the timeframes required by
           DoD Regulation 7000.14-R, volume 14. DIA will provide a copy of the
           preliminary review report when the investigations are complete.

                  4. Discontinue use of the “IOU” process, which allows funds to be
           obligated without sufficient documentation to show that funds are available.

           Management Comments. The DIA Chief Financial Executive concurred and
           has already terminated the IOU process. An operating instruction is being written
           that will require certification by higher-level personnel when funding targets
           change.

                 5. Establish and implement procedures to record payments made in
           advance of receipt of goods and services as assets, and recognize expenses
           when the goods and services are received.

           Management Comments. The DIA Chief Financial Executive nonconcurred and
           stated that advances discussed in the report do not qualify as advanced payments
           based on the opinion of the DIA General Counsel. The DIA General Counsel
           stated that “the type of ‘advance payment’ discussed in the audit report,
           acceptance by the receiving agency of a MIPR, does not comport with the
           definition of ‘advance payment’ cited in the GAO Red Book” (page 5-50). In
           addition, the audit’s reference to advance payments under the Economy Act as
           being subject to the payment procedures in DoD Regulation 7000-14.R, volume
           11A, chapter 3, only applies to the payment of actual billings by the agency filling
           the order. The DIA General Counsel also stated that because MIPRs are funded
           by either direct or reimbursable funds without the need for the servicing agency to
           send a bill, the requirement in DoD Regulation 7000-14R to record advance
           payments does not appear to apply to MIPR transactions.

           Audit Response. The DIA comments are not responsive. Our report did not
           state that we considered acceptance by the receiving agency as an advance
           payment. The agencies accepting the MIPRs in question from DIA specifically
           requested that they receive the funds in advance. Whether these requests should
           be considered a “bill” or not is a matter of semantics. The agencies receiving the
           MIPRs requested that DIA pay in advance for the goods or services to be
           provided. DIA complied with the requests. The GAO Red Book, page 5-50, that
           the DIA Chief Financial Officer referenced, discusses making advance payments
           to Government contractors. DIA made the advance payments discussed in our
           report to other Government agencies.

           DoD Regulation 7000.14-R, volume 4, chapter 5, states that DoD Components
           making advances or prepayments should record them as assets until receipt of the
           goods or services. In addition, Statement of Federal Financial Accounting
           Standards No. 1 specifically states that advances and prepayments should be


*
    DIA subsequently clarified that it is conducting preliminary reviews of all seven of the potential
    violations mentioned in the recommendation.

                                                       13 

recorded as assets. We request that the DIA Chief Financial Officer reconsider
her position and provide comments in response to the final report.

        6. Establish procedures and controls to ensure that funds obligated
under the authority of the Economy Act are deobligated at the end of each
fiscal year if the servicing agency has not provided the services or entered
into an authorized contract to provide the goods or services.

Management Comments. The DIA Chief Financial Executive concurred and
stated that procedures and controls to ensure that funds are deobligated at the end
of each fiscal year are being enhanced and will be used for the closeout of
FY 2007. In addition, the current data cleansing and data preparation efforts
underway to facilitate the implementation of the new financial system for DIA
will further enhance deobligation efforts.




                                    14 

           B. 	Internal Controls over Incoming
               Economy Act Orders
           A review of 15 incoming reimbursable Economy Act orders showed that
           DIA did not have adequate procedures to effectively and efficiently
           manage its processes and comply with statutory and DoD requirements.
           Specifically, DIA did not:

                  •	 promptly bill and collect for goods and services provided;

                  •	 ensure that DoD was reimbursed for assigned military
                     personnel detailed to non-DoD organizations;

                  •	 promptly return unneeded funds to the requesting agencies;

                  •	 collect contracting fees when performing reimbursable orders;
                     and

                  •	 accept all Economy Act orders in writing.

           These conditions occurred because DIA lacked adequate internal control
           over its incoming Economy Act orders process, and had not established
           procedures to ensure that it did not violate applicable statutes and Federal
           procurement and DoD regulations. As a result, DIA could not provide
           reasonable assurance that it effectively used and administered
           intragovernmental orders in compliance with applicable laws and
           regulations. In addition, DIA did not comply with regulatory guidance
           established to ensure the economical use of Government resources.


Financial Management and Administration of Incoming
  Economy Act Orders
    DIA did not have effective internal controls over the financial management and
    administration of incoming Economy Act orders. Specifically, DIA did not
    promptly bill and collect, have DoD reimbursed for detailed military personnel,
    return unneeded funds timely, collect contracting and overhead fees, and accept
    Economy Act orders in writing (see Appendix E for a breakout of the deficiencies
    for the 15 incoming orders reviewed).

    Billings and Collections. DIA did not bill or collect funds from reimbursable
    orders in a timely manner for 10 of the 15 customer orders reviewed, and had not
    established procedures to determine and report delinquent intragovernmental
    receivables. As a result, DIA intragovernmental Accounts Receivable were
    understated, and DIA did not have funds available for use for other needs by not
    promptly billing and collecting for goods and services provided.



                                        15 

                   Billings. DIA did not promptly bill other Government agencies for goods
           and services it provided on a reimbursable basis. The 15 orders we reviewed
           included 23 billings. DIA billed 16 of the 23 billings, totaling $18,874,562, more
           than 30 days after the service was performed or the goods delivered. The average
           delay in billing for the 16 late billings was 82 days, and DIA took more than four
           months (up to 239 days) to bill 9 of the 16. DoD Regulation 7000.14-R,
           volume 11A, chapter 1, requires agencies to submit bills within 30 days after the
           month the service was performed or the goods delivered.

                   Collections. DIA collected 20 of the 23 bills, totaling $20,030,346, more
           than 30 days after the month they were billed. The average number of days to
           collect was 172 days after the billing date. Higher-level management should
           become involved when collections are not received within established
           timeframes. Also, DIA did not properly age and report its intragovernmental
           receivables in accordance with DoD Regulation 7000.14-R, volume 4, chapter 3.
           This regulation directs performing entities to promptly collect from the ordering
           agency and aggressively pursue collections not made within 30 days of the billing
           date. By not aging delinquent receivables and preparing quarterly reports, DIA
           was unaware of its delinquent collections. In addition, by not promptly
           collecting, DIA was not able to use funds to be collected for other legitimate
           purposes.

           Nonreimbursement for DoD Military Personnel Detailed Outside DoD. DIA
           detailed its assigned military personnel to agencies outside of DoD on a
           nonreimbursable basis in apparent violation of 31 U.S.C. 1301(a). The magnitude
           of the problem cannot be fully documented because DIA could not provide us
           with the number of military personnel they have assigned outside of DoD.
           However, discussions with the military personnel division within the Human
           Capital directorate of DIA revealed that up to eight military personnel assigned to
           DIA were detailed at one time or another to non-DoD organizations between
           January 2003 and June 2006. Using current published DoD labor rates to be
           charged to non-DoD agencies for the use of military detailees, DoD would lose
           approximately $1.2 million annually for these personnel.

           This may violate 31 U.S.C. 1301(a) by unlawfully augmenting another Federal
           agency’s appropriation. DIA also did not comply with DoD
           Regulation 7000.14-R, volume 11A, chapters 1 and 3, which require that
           non-DoD organizations pay the servicing agency for the cost of military labor. 1
           Timely Return of Unneeded Funds to the Requesting Agency. DIA did not
           promptly return unneeded funds to the requesting agencies in four of the
           15 reimbursable orders reviewed. 31 U.S.C. 1535(d) requires unneeded funds to
           be deobligated and returned to the requesting agency before the appropriation
           expires. DoD Regulation 7000.14-R, volume 11A, chapter 3, states that it is
           critical for an organization to reconcile the obligation status of Economy Act

1
    In Executive Secretary, Office of the Secretary of Defense Memorandum, “Detail of Department of
    Defense (DoD) Personnel to Duty Outside DoD,” dated July 27, 2005, the reimbursement requirement
    was reiterated, stating that all details of DoD personnel outside of DoD, except for the most compelling
    exceptions, will be on a reimbursable basis.
                                                       16 

orders and deobligate unused funds before the end of the funds availability. We
recognize that monitoring the status of funds in reimbursable orders is a joint
responsibility between the requesting and performing agencies. By not actively
monitoring the status of funds in a reimbursable order for unneeded funds, DIA
denied the requesting entities the use of more than $.9 million for other authorized
purposes before their appropriations expired.

       •	 Customer Orders Q1014F5-05 ($64,120) and Q1093F4-04
          ($88,362). The DIA accounting database shows that it closed
          customer order Q1014F5-05, with a remaining balance of $64,120, on
          September 29, 2005, 1 day before the expiration of these funds. DIA
          also closed customer order Q1093F4-04, with a remaining balance of
          $88,362, on September 30, 2004, the final day of the fiscal year and
          expiration of these funds. DIA could have notified the requesting
          agency of these unneeded funds much earlier because amounts billed
          were periodic and recurring salary costs that DIA paid each pay
          period.

       •	 Customer Order Q1125R5-05 ($100,000). The DIA accounting
          database showed that it closed this order for $100,000 on
          September 29, 2005, 1 day before the expiration of these funds. This
          customer order was accepted by DIA on May 13, 2005, and
          subsequently closed on September 29, 2005, due to inactivity–more
          than 4 months after the order was accepted.

       •	 Customer Order Q3038R4-04 ($40,000 and $623,225). The DIA
          accepted this customer order on January 26, 2004, for $16,580,000.
          On March 11, 2004, DIA obligated $16,540,000. The remaining
          $40,000 remained on the books as funds available until September 30,
          2004, when it was zeroed out. In addition, the accounting database
          records showed that $623,225 remains in unfilled customer orders as
          of December 27, 2006, even though the last activity on the order was
          on August 3, 2005.

Collection of Contracting Fees. DIA did not bill customers for all costs
associated with performing incoming reimbursable customer orders – specifically,
contracting costs. Six of the 15 customer orders we reviewed required DIA
contracting services support (five to non-DoD entities and one to a DoD entity).
However, DIA did not charge contracting costs on any of the six orders requiring
the use of the DIA contracting office. Discussion with the Chief, Virginia
Contracting Activity, DIA, disclosed that DIA does not charge for contracting
fees in the performance of an incoming reimbursable order, and no policy exists
within DIA to do so. DoD Regulation 7000.14-R, volume 11A, chapter 1,
requires that contract costs incurred for contracts awarded as part of a
reimbursable agreement shall be billed to the benefiting organization. As a result,
the DIA lost use of funds that it expended on its contracting operations. DIA
should establish procedures to bill benefiting organizations for contracting costs
(and overhead costs, if it determines these costs are significant and it is cost
effective).



                                    17 

    Acceptance of Economy Act Orders in Writing. DIA did not provide a written
    acceptance to the requesting agency for 10 of the 15 incoming reimbursable
    Economy Act orders reviewed. These orders were not requested on a MIPR
    because DIA received these requests from a non-DoD agency. DIA officials
    stated that they were not required to accept non-DoD interagency orders in
    writing, and further stated that the acceptance of an interagency order in writing is
    a DoD requirement applicable only to MIPRs within DoD. However,
    31 U.S.C. 1501(a)(1) requires a written, binding agreement, to have a valid,
    recordable obligation. DoD Regulation 7000.14-R, volumes 3 and 11A, also
    require acceptance in writing and states that in the absence of such
    documentation, there can be no assurance that there is a meeting of the minds on
    the goods or services to be provided or that payment is required.


Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Director, Defense Intelligence Agency:

            1. Bill and collect reimbursable customer orders in the timeframe
    directed in the DoD Regulation 7000.14-R. Involve higher-level management
    in the collection process when necessary.

    Management Comments. The DIA Chief Financial Executive concurred and
    stated that DIA has re-engineered the customer order process and currently
    processes bills monthly and follows up on delinquent billings each week. Higher-
    level management is engaged as needed. In addition, DIA has reviewed prior-
    year accounts and processed billings to collect previously uncollectible accounts
    receivable.

          2. Begin aging and reporting intragovernmental receivables in
    accordance with the DoD Regulation 7000.14-R.

    Management Comments. The DIA Chief Financial Executive concurred and
    stated that its current financial systems do not allow full aging at the desired level.
    However, until a new financial system is installed, DIA is currently using an
    Access database to age receivables.

           3. Establish policy and procedures to:

                  a. Require that the Services be reimbursed when the Defense
    Intelligence Agency details its assigned military members outside of the DoD.

    Management Comments. The DIA Chief Financial Executive concurred and
    has formally established a reimbursable policy for details of military personnel
    outside of the DoD. DIA also has an informal policy to establish a Memorandum
    of Agreement when detailing military members outside of the DoD. DIA will
    determine whether the detail is reimbursable based on whether the detail is of
    benefit to DIA or not.
                                          18 

Audit Response. The DIA comments are partially responsive to the
recommendation. The formal policy that DIA referred to is DIA Regulation
20-16, “Temporary Assignment of DIA Personnel to Duty Outside the Agency,”
September 10, 1999. This regulation contains a statement that “the assignment of
military members must be coordinated with the appropriate Military Service.”
However, it provides no specific information on which DIA office has
responsibility for controlling the temporary assignment of military members
outside of DIA, which offices within the Military Service need to be coordinated
with, or the formal process of creating a Memorandum of Agreement between the
organizations providing and receiving the Military personnel.

DIA is not the authority on determining whether a detail would be on a
reimbursable or nonreimbursable basis. Office of the Under Secretary of Defense
(Intelligence) memorandum, “Detail and Exchanges of DoD Intelligence
Employees,” October 31, 2003, stated that the Under Secretary of Defense
(Intelligence) would review all detail requests prior to submission to the
Executive Secretary for approval. Further, he “will decide in such cases whether
to provide a waiver to the reimbursement requirement.” Therefore, the DIA
comment that it has an informal policy to determine whether a detail is
reimbursable suggests that DIA may be making the decision. We request that
DIA provide a response to the final report describing formal policies and
procedures it plans to put into effect to ensure that DoD is reimbursed for DIA-
assigned Military personnel detailed outside of the DoD.

                b. Continuously monitor incoming reimbursable orders
obligation and expenditure rates to enable the timely return of unneeded
funds to the requesting agency. Also, research the $623,225 that is currently
obligated under incoming reimbursable customer order Q3038R4-04 to
determine if it is needed to complete the performance of this customer order.
If it is not needed, initiate appropriate action and documentation to return
the funds to the requestor.

Management Comments. The DIA Chief Financial Executive concurred and
stated that as part of its re-engineered customer order process, DIA personnel
continuously monitor incoming reimbursable orders to enable the timely return of
unneeded funds. She further stated that the obligation of $623,225 discussed in
the report now has an unliquidated balance of only $9,373 and, based on research,
there are no funds to return.

Audit Response. The DIA Chief Financial Executive comments are partially
responsive to the recommendation. Our audit helped uncover an accounting error
related to the customer order mentioned in the recommendation. DIA researched
the transaction and provided information to us after we issued the draft report
showing that DIA actually paid for the order on April 12, 2004, but failed to
update its accounting records until February 2007. Because DIA did not update
its accounting records, it did not bill the requesting agency for the funds expended
on behalf of the ordering agency. In addition, because there has been no activity
for the reimbursable order since September 30, 2005, it would appear that the
unliquidated balance of $9,373 should be returned to the ordering agency. We
request that DIA provide comments in response to the final report regarding the


                                    19 

disposition of the $9,373 in unliquidated obligations remaining on its accounting
records.

                c. Bill benefiting organizations for contracting costs associated
with reimbursable orders (and overhead costs, if these costs are significant
and it is cost effective).

Management Comments. The DIA Chief Financial Executive nonconcurred and
stated that billing for services that DIA receives appropriations for would be
supplementing DIA appropriations, which is not authorized. Further, such fees
would be immaterial to the financial statements and would be cost prohibitive to
track, account for, and bill. Finally, DoD Regulation 7000.14-R, volume 11A,
chapter 1, states that “Contract administration costs are not to be charged within a
DoD component or to another DoD component when funding for such costs are
included in the mission funding of the performing DoD entity.” The report does
not show what organization is supported by DIA.

Audit Response. The DIA comments are not responsive to the recommendation.
The purpose of the Economy Act is to allow one Federal agency to provide goods
and services to another Federal agency. The Economy Act specifically allows the
performing agency to return the collected funds into the appropriation from which
the funds were initially expended. This is not supplementing an appropriation.
As stated in our draft report, DoD Regulation 7000.14-R, volume 11A, chapter 1,
section 010203E1, requires contract costs incurred for contracts awarded as part
of a reimbursable agreement to be billed to the benefiting organization. This
should not be confused with the DIA reference to section 010203E6 of this
regulation, which refers specifically to contract administration costs. Contract
administration costs would be associated with an organization such as the
Defense Contract Management Agency, which is appointed on contracts as the
“contract administrator.” Our report specifically refers to the costs incurred by
the DIA contracting office in creating a contract or modification that is in support
of a reimbursable agreement.

In addition, we subsequently contacted personnel from the Office of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer, who confirmed our
understanding of billing organizations for contracting costs associated with
reimbursable orders and referred us to addendum 1 of DoD Regulation
7000.14-R, volume 11A, chapter 1. This states that actual contract costs should
be recouped for sales of material and services procured (contracted) for
customers. We request that the DIA Chief Financial Executive reconsider her
position and provide comments on the final report regarding how DIA intends to
comply with the DoD requirement.

             d. Formally accept, in writing to the requesting agency, all
incoming intragovernmental orders.

Management Comments. The DIA Chief Financial Executive concurred and
stated that DIA has and will continue to approve in writing all incoming MIPRs
with a DD Form 448-2.


                                     20 

Audit Response. The DIA comments are not responsive to the recommendation
because DIA stated that it approves (accepts) only incoming MIPRs in writing.
Our recommendation included all intragovernmental orders received. During the
audit, a DIA official stated that DIA was not required to accept non-DoD
interagency orders in writing because this was a DoD requirement applicable only
to MIPRs within DoD. MIPRs (Military Interdepartmental Purchase Requests)
are used only by DoD entities. The non-DoD intelligence agency sending orders
to DIA did not use a MIPR, and DIA did not formally accept the reimbursable
order. We request that DIA provide comments in response to the final report
regarding how it intends to formally accept orders from non-DoD agencies.




                                   21 

Appendix A. Scope and Methodology 

   We reviewed the use and control of both outgoing and incoming
   intragovernmental orders by the DIA. We reviewed laws, policies, regulations,
   and guidance within the Federal Government applicable to the use of
   intragovernmental orders. We interviewed acquisition, budget, and accounting
   officials to gain an understanding of the policies and procedures used to process
   intragovernmental orders. In addition, we traveled to the Defense Finance and
   Accounting Service, Columbus, Ohio; Army Field Support Command, Rock
   Island, Illinois; and Warner-Robins Air Logistics Center, Robins, Georgia to
   obtain additional information on a select number of orders.

   We judgmentally selected a sample based on top dollar value, year-end spending,
   and activities of special interest; and requested supporting documentation for both
   outgoing and incoming intragovernmental orders processed by the DIA between
   October 1, 2002, and June 30, 2005. Our review consisted of 43 outgoing MIPRs,
   with 70 modifications, totaling $405.1 million and 15 incoming reimbursable
   orders, valued at $30.3 million. In addition, we did a limited review of
   13 incoming direct cite orders.

   We performed this audit from May 2005, through January 2007, in accordance
   with generally accepted government auditing standards.

   Use of Computer-Processed Data. We used computer-processed data from the
   Rosedust accounting system and the Purchase Request Electronic Support
   System. We did not assess the reliability of the data because DIA personnel
   stated its data could not be relied upon as a complete universe of incoming and
   outgoing interagency orders. We verified the accuracy of the data for each
   sample item or stated the source of the data. Therefore, the unreliability of the
   data provided by DIA systems would not change the results or conclusions of the
   audit report.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified high-risk areas within the Federal
   Government. This report provides coverage of the DoD Financial Management
   and Management of Interagency Contracting high-risk areas.




                                       22 

Appendix B. Prior Coverage
     During the past 5 years, the Government Accountability Office (GAO), the DoD
     Inspector General (DoD IG), and the DIA Inspector General have issued nine
     reports related to intragovernmental purchases and interagency contracting.
     Unrestricted GAO reports can be accessed over the Internet at www.gao.gov.
     Unrestricted DoD IG reports can be accessed at www.dodig.mil/audit/reports.

Government Accountability Office
     Report No. GAO-05-201, “Interagency Contracting: Problems with DOD’s and
     Interior’s Orders to Support Military Operations,” April 2005.

     Report No. GAO-05-207, “High-Risk Series: An Update,” January 2005.

DoD Inspector General
     Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the General

     Services Administration,” October 30, 2006. 


     Report No. D-2006-102, “Marine Corps Governmental Purchases,” 

     July 31, 2006. 


     Report No. D-2005-096, “DoD Purchases Made Through the General Services

     Administration,” July 29, 2005. 


     Report No. D-2003-090, “Use and Control of Military Interdepartmental Purchase 

     Requests at the Air Force Pentagon Communications Agency,” May 13, 2003. 


     Report No. D-2002-110, “Policies and Procedures for Military Interdepartmental 

     Purchase Requests at Washington Headquarters Services,” 

     June 19, 2002. 


     Report No. D-2002-109, “Army Claims Service Military Interdepartmental 

     Purchase Requests,” June 19, 2002. 


DIA Inspector General
     Assessment No. U-06-0179/IG, “Acquisition and Accounting Processes
     Assessment,” May 5, 2006.




                                        23 

Appendix C. Summary of Deficiencies for Outgoing
            MIPRs Reviewed
                MIPR                            Acquisition Planning       Financial Management
                                                                                        Advanced
                                            No Written                     Potential
                   No. of     Amount                      Use of                         Payment
   Number                                   Acquisition            D&F       ADA
                   Mods.    (in millions)                 IOU ∗                         Recorded
                                               Plan                        Violation
                                                                                          Wrong
HHM402-3-0598                  $2.00            X           1      No
HHM402-4-0201         4        $8.47            X           2      No
                                                                            Wrong
HHM402-4-0237                $12.00             X           1      No
                                                                          Appropriation
HHM402-4-0244                $42.50             X           1      No
HHM402-4-0266         16      $2.85             X           1      N/A
                                                                           Bona Fide
HHM402-4-0272         1        $7.97            X                  No
                                                                            Needs
HHM402-4-0275                $55.50            X                   No
HHM402-4-0348         2       $3.80            X                   NS**                    X
HHM402-4-0537         1       $0.90           NR***         1      No
HHM402-4-0562         2       $1.64            X                   No
HHM402-4-0720                $34.76            X            1      NS
HHM402-4-0727                 $1.28            X            1      NS
                                                                            Wrong
HHM402-4-0750         2      $13.79             X           2      NS     Appropriation
                                                                           + 2 Mods.
HHM402-4-0756         1      $14.04             X           2      NS
                                                                            Wrong
HHM402-4-1005                $11.61             X           1      NS
                                                                          Appropriation
HHM402-4-1713         1        $1.32            X           1      N/A
HHM402-4-1720                  $2.40            X           1      No
                                                                            Wrong
HHM402-4-1804                  $8.00            X                  NS
                                                                          Appropriation
HHM402-4-2000         1      $18.68            NS           1      No
HHM402-5-0128                  $.50            NR                  NS                      X
HHM402-5-0136                 $3.00            NS                  NS
HHM402-5-0143                   $.50           NR                  NS**                    X
HHM402-5-0157                  $4.61            X                  NS                      X
HHM402-5-0178                   $.10           NR                  No                      X


   ∗   Number of IOUs issued
   ** Not Signed
   *** Not Required
                                                    24
                MIPR                          Acquisition Planning        Financial Management
                                                                                       Advanced
                                          No Written                      Potential
                 No. of     Amount                       Use of                         Payment
   Number                                 Acquisition             D&F       ADA
                 Mods.    (in millions)                  IOU ∗                         Recorded
                                             Plan                         Violation
                                                                                         Wrong
HHM402-5-0196                $.10            NR
HHM402-5-0203      1        $1.65            NS            1      NS
HHM402-5-0206      2         $.50            NR                   NS
HHM402-5-0223               $5.94            X                    NS
HHM402-5-0236     19        $7.92            X             2      No
HHM402-5-0240     1         $4.74            X                    No
HHM402-5-0278                $.10            NR                   No
HHM402-5-0280      1        $1.60            X             2      No
HHM402-5-0300                $.15            NR
HHM402-5-0303               $5.00            X                     No
HHM402-5-0317                $.11            NR                                           X
HHM402-5-0347                $.61            NR                   No
HHM402-5-0538               $1.43            X                    No
HHM402-5-0556      1         $.15            NR                   No
HHM402-5-0558                $1.0            X                    No
HHM402-5-0707     13       $81.68            X             8      NS
HHM402-5-0713     1         $8.82            X                    NS
HHM402-5-0734                $.60            NR                   NS
HHM402-5-0740              $30.75            X             1      NS
                                             3 NS
                                            28 X                  18 NS
Totals            70      $405.07           12 NR         31∗     20 No      7            6




                                                  25 

Appendix D. Questionable Use of Appropriation
            Cited on MIPRs
MIPR Number        Amount        Supplying Activity     Purpose                  Appropriation

HHM402-4-0237      $12,000,000   U.S. Army Corp of      Modification for Camp         O&M
                                 Engineers              Slayer main gate and
                                                        guardhouse.

HHM402-4-1005      $11,611,000   Central Intelligence   The last FY 04                O&M
                                 Agency                 installment of the DIA
                                                        portion of the
                                                        community bill on the
                                                        establishment of the
                                                        Terrorist Threat
                                                        Integration Center.

HHM402-4-0750       $2,400,000   Coalition Forces       Partial reimbursement         O&M
                                 Land Component         to Army for Iraq
                                 Command                Survey Group
                                                        Transponder cost for
                                                        DKET 24 Ku-Band
                                                        commercial bandwidth.

HHM402-4-0750-01    $9,000,000   Coalition Forces       Partial reimbursement         O&M
(modification)                   Land Component         to Army for Iraq
                                 Command                Survey Group
                                                        Transponder cost for
                                                        DKET 24 Ku-Band
                                                        commercial bandwidth.

HHM402-4-0750-02    $2,390,000   Coalition Forces       Partial reimbursement         O&M
(modification)                   Land Component         to Army for Iraq
                                 Command                Survey Group
                                                        Transponder cost for
                                                        DKET 24 Ku-Band
                                                        commercial bandwidth.

HHM402-4-1804       $8,000,000   U.S. Army Corp of      Modification for Camp         O&M
                                 Engineers              Slayer main gate and
                                                        guardhouse.

   Total           $45,401,000




                                          26 

Appendix E. 	Summary of Deficiencies for
             Incoming Economy Act Orders
             Reviewed




                                                                                                                                                      Non-Collection of Contracting
                                                                                                                        Untimely Return of Unneeded
                                                                                                                        Funds to Requesting Agency
                                                                                          Detailed Military Personnel
    Customer Order Number




                                                                                                                                                                                      Economy Act Orders Not
                                                                                           Non-Reimbursement for
                                Customer Order Value




                                                                                                                                                                                        Accepted in Writing
                                                                                                                                                          and Overhead Fees
                                                                       Late Collections




                                                                                                 Outside DoD
                                                       Late Billings




Q1014F5-05                   $1,313,677                X                       X                                              X                                                            X
Q1017F5-05                     $187,919                X                       X                                                                                                           X
Q1065R5-05                   $4,579,576                X                       X                                                                             X                             X
Q1109R5-05                     $850,000                X                       X                                                                             X                             X
Q1113R5-05                     $600,000                                                                                                                                                    X
Q1125R5-05                     $100,000                                                                                       X                                                            X
Q1129R5-05                   $1,700,000                                                                                                                      X
Q1166R5-05                   $1,200,000                                                                                                                      X                             X
Q1171R5-05                   $1,000,000                                                                                                                      X                             X
Q1093F4-04                     $400,000                X                    X                      X                          X                                                            X
Q1106R4-04                     $350,000                X                    X                                                                                                              X
Q1168C4-04                     $693,332                X                    X
Q1197P4-04                     $240,000                                     X
Q1198C4-04                     $529,025                                     X
Q3038R4-04                  $16,580,000                X                    X                                                 X                              X
    15                      $30,323,529                8                    10                      1                         4                              6                           10




                                                                                                27 

Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
Assistant to the Secretary of Defense for Intelligence Oversight

Other Defense Organizations
Director, Defense Intelligence Agency
   Inspector General, Defense Intelligence Agency
Director, National Security Agency
Director, National Geospatial-Intelligence Agency
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations
Office of Management and Budget
Office of the Director of National Intelligence
  Office of the Inspector General, Office of the Director of National Intelligence

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Permanent Select Committee on Intelligence




                                           28 

Defense Intelligence Agency Comments 



                                  DEFENSE INTELLIGENCE AGENCY

                                           WASHINGTON, D.C. 20340:




      U-023/FE-2
                                                                                APR 05 2007 

      To: 
        Inspector General
                     DepartmentofDefense

                   400 Army Navy Drive 

                   Arlington, VA 2202-4704 


     Subject:       Use and Control of Intergovernmental Purchases at the Defense Intelligence
                   Agency, Project No. D2005-D000FA-0198.000, Draft Report

       Thank     you for conducting this audit and providing DIA the opportunity to comment The
       use and Control of Intragovemmental Purchases at the Defense Intelligence Agency" audit
     report is a useful source of information identifying potential areas for improvement in the
     management and documentation of incoming and outgoing MIPR processes at DIA A
     preliminary review of the transactions identified as potential Antideficiency Act violations has
     been completed and it does not appear that the MIPRs cited were instances ofimproperfunduse
     or improper contracting actions. However, a formal preliminaryAntideficiencyActviolation
     review is in progress as required and the resulting report will be provided to you Our detailed
     management comments on the report are enclosed.

     2. If you have any questions concerning our comments please contact Ms Deborah Ward or Mr
     Ken Murphy at (703) 692- 4581 or (703) 695- 2294, respectively.



     enclosure (1) a/s           Michele             O.              Platt
                                                          Chief Financial Executive




                                                   29 

Final Report 

 Reference 





                 Executive Summary Section,

                 Results Paragraph.

                 Nonconcur with finding summary statement:

Revised                 "DIA did not always use MIPRs properly for acquiring goods
                        and services. A review ... disclosed that DIA ... improperly
                        used funds for the acquisitions..." (Executive Summary
                        Section, Results paragraph, first two sentences, page i).

                 There was no substantiation offered in the audit that MIPRs were not the proper
                 vehicle to accomplish the transactions or that funds used were improper. The
                 initial part of our preliminary review indicated that all funds used could be
                 reasonably justified. The substantiated part of the audit findings dealt with the
                 adequacy of the documentation supporting the transactions.

                 Suggest changing to "Available documentation was not adequate to determine
                 whether or not the DIA used MIPRs properly for acquiring goods and services or
                 that funds used were proper for the goods/services requested".

                 This more properly aligns with the audit statement (Appropriation Purpose
                 paragraph, page 7, line 14) "However, DIA did not maintain in their acquisition
                 files adequate documentation to justify the appropriation that was used to fund
                 the four MIPRs (and two modifications). Therefore, we could not determine
                 whether the MIPRs complied with 31 U.S.C. 1301, "Application," which states
                 that appropriations must be applied only to the objects for which the
                 appropriations were made except as otherwise provided by law".

                 Executive Summary Section.

                 Results Paragraph.

                 Nonconcur with the findings summary statement;

                       "DIA did not collect contracting fees when performing
                       reimbursable orders" (Executive Summary Section, Results
                       paragraph, Second paragraph, line 7, page ii)

                 The finding as written implies that contracting costs were separately identifiable
                 and material in relation to the reimbursable order. The number of orders
                 reviewed were immaterial to the total processed (6 of 596), costs of contracting
                 are immaterial, and costs of contracting were not separately identifiable by any
                 reasonable means,




                                                                                                 1




                                                        30 

                                                                                     Final Report 

                                                                                      Reference 





Suggest changing to: "DIA should determine whether contracting fees are
identifiable and material for reimbursable orders and, if so, establish procedures
to allocate and charge the direct costs against the orders".



Review of Internal Controls Section.

Adequacy of Internal Controls Paragraph.

Nonconcur with the findings statement:

      "DIA had material internal control weaknesses as defined by DoD
      Instruction 5010.40". (Adequacy of Internal Controls paragraph, first
      sentence, page 3).

DoDI 5010.40 states "Material Weakness in ICs for the FMFIA Overall Process is
a reportable condition which is significant enough to report to the next higher
level. It is management's judgment as to whether or not a weakness is deemed
material". Weaknesses deemed material in management's judgment are so
reported as material weaknesses in the Agency annual Statement of Assurance.
This weakness was not so reported.

Suggest removing the reference to DODI 5010.40.

Review of Internal Controls Section.

Adequacy of Management's Self-Evaluation Paragraph.

Nonconcur with the findings statement:

      "DIA officials did not identify the acquisition and financial management
      processes for intragovernmental purchases as an assessable unit; and
      therefore, did not identify or report the material internal control
      weaknesses identified by the audit". (Adequacy of Management's Self-
      Evaluation Paragraph, first sentence, page 3).

DIA officials did identify acquisition and financial management processes within
the context of the DIA Managers Internal Control (MIC) program.

DoDI 5010.40 states: "Assessable Unit. An organizational subdivision and pan of
the total IC organization that requires compliance with the MIC Program for a
DoD Component". The DIA MIC program (DIAI 5010.003, paragraph 4) states:
"After establishing ICP responsibilities (Section 3), directorates and special
offices subdivide their organizations into assessable units. Assessable units are
the activities that management wishes to monitor to ensure organizational level


                                                                                2




                                       31 

objectives are being achieved or supported. Assessable units are where
management places internal controls to ensure risks to achieving objectives are
identified and mitigated. Documenting assessable units (Enclosure 3 / available
on FE2C webpage) provides support For the management's assertions about
internal controls. Assessable unit documentation contains information about
objectives, resources, measures, risks, controls and control tests. The level and
amount of assessable units is a management judgment".

The Acquisition Executive identified MIPRs as an assessable unit in the DIA
Acquisition Life Cycle Business Process Reengineering Project Final Report (20
September 2006). That report identifies and flowcharts MIPR acquisition and
financial management processes, showing risk areas and controls, and, for the
purposes of the DIA MIC program, shows these as assessable units. For 2006,
DIA did not consider this assessable unit as a reportable material internal control
weakness in its statement of assurance.



Audit Report Section A. Use of MIPRs for the Procurement of Goods and
Services.

Introductory Summary Results Statement.

Nonconcur with the summary results statement:

      "DIA did not always use MIPRs properly for acquiring goods and
      services". (Section A Use of MIPRs for the Procurement of Goods And
      Services, page 4, first sentence).

There was no substantiation offered in the audit that MIPRs were not the proper
vehicle (use) to accomplish the transactions or that funds used were improper.
The initial pari of the preliminary review indicated that all funds used could be
reasonably justified. The substantiated part of the findings dealt with the
adequacy of the documentation supporting the transactions.

Suggest changing to "DIA documentation did not provide adequate support for
the proper use of MIPRs and propriety of funds used".

This more properly accords with the audit statement (Appropriation Purpose
paragraph, page 7, line 14) "However, DIA did not maintain in their acquisition
files adequate documentation to justify the appropriation that was used to fund
the four MIPRs (and two modifications). Therefore, we could not determine
whether the MIPRs complied with 31 U.S.C. 1301, "Application," which states
that appropriations must be applied only to the objects for which the
appropriations were made except as otherwise provided by law.




                                                                                 3




                                        32 

                                                                                    Final Report 

                                                                                     Reference 





Audit Report Section A. Use of MIPRs for the Procurement of Goods and
Services.

Introductory Summary Results Statement.

 DIA did not adequately plan the acquisitions" (Section A. Use of MIPRs for the
Procurement of Goods And Services, page 4, second sentence),

Concur.

Audit Report Section A. Use of MIPRs for the Procurement of Goods and
Services.

Introductory Summary Results Statement.

Nonconcur with the findings summary results statement

      "DIA improperly used funds for the acquisitions" (Section A. Use of MIPRs
      for the Procurement of Goods And Services, page 4, second sentence).          Revised
There was no substantiation offered in the audit that funds used were improper.
The initial part of the preliminary review indicated that all funds used could be
reasonably justified. The substantiated part of the findings dealt with the
adequacy of the documentation supporting the transactions.

Suggest changing to "DIA documentation did not provide adequate support for
the proper use of MIPRs and propriety of funds used".

This more properly accords with the audit statement (Section A, Appropriation
Purpose paragraph, page 7, line 14) "However, DIA did not maintain in their
acquisition files adequate documentation to justify the appropriation that was
used to fund the four MIPRs (and two modifications). Therefore, we could not
determine whether the MIPRs complied with 31 U.S.C. 1301, "Application," which
states that appropriations must be applied only to the objects for which the
appropriations were made except as otherwise provided by law.

Audit Report Section A. Use of MIPRs for the Procurement of Goods and
Services.

Introductory Summary Results Statement.

"DIA did not properly record and account for transactions in its accounting
system" (Section A. Use of MIPRs for the Procurement of Goods And Services,
page 4, second sentence).

Concur,



                                                                               4




                                       33 

Final Report
 Reference




               Audit Report Section A. Use of MIPRs for the Procurement of Goods and
               Services.

               Acquisition Planning Section.

               Concur.

               Audit Report Section A. Use of MIPRs for the Procurement of Goods and
               Services.

               Use of Funds Section.

               Summary Finding Statement.

               Nonconcur with the summary finding results statement:

                       DIA did not properly manage its financial resources. Specifically, DIA
Revised 	             may have inappropriately used the Operation and Maintenance (O&M)
                      appropriation to fund four MIPRs and two modifications for
                      procurements, totaling 45.4 million", (Section A. Use of MIPRs for the
                      Procurement of Goods And Services, Use of Funds Section, page 7, first
                      sentence)

               Nonconcur with the designation of these transactions as procurements. The
               audit does not provide adequate detailed support that these transactions were
               actual procurements.         Preliminary review indicates that these were not
               procurement actions. The preliminary Antideficiency Act violation review,
               currently in progress, will investigate each transaction and the required resulting
               report will provide documentation to confirm or contradict this allegation.

               Suggest changing to; "DIA may have inappropriately used the Operation and
               Maintenance (O&M) appropriation to fund four MIPRs and two modifications
               transactions". DIA documentation did not provide adequate support for the
               propriety of funds used".

               This more properly accords with the audit statement (Appropriation Purpose
               paragraph, page 7, line 14) "However, DIA did not maintain in their acquisition
               files adequate documentation to justify the appropriation that was used to fund
               the four MIPRs (and two modifications). Therefore, we could not determine
               whether the MIPRs complied with 31 U.S.C. 1301, "Application," which states
               that appropriations must be applied only to the objects for which the
               appropriations were made except as otherwise provided by law.




                                                                                                5




                                                       34 

Audit Report Section A. Use of MIPRs for the Procurement of Goods and


Use of Funds Section.

Summary Findings Statement.

Nonconcur with the findings summary statement:

        DIA did not properly manage its financial resources. Specifically, DIA
       obligated funds totaling $8 million on a MIPR in apparent violation of the
       Bona Fide Needs statute". (Section A. Use of MIPRs for the Procurement
       of Goods And Services, Use of Funds, page 7, first sentence).

Nonconcur with the designation that DIA obligated in apparent violation. The
audit does not provide adequate detailed support that the obligation action was
invalid. Preliminary review indicates that the obligation was to acquire items to
satisfy a current need. Delivery was acceptable at any time. Thus the
transaction met the bona fide rule requiring the obligation meet the need of the
period available for obligation. The preliminary Antideficiency Act violation
review, currently in progress, will further investigate this transaction and the
required resulting report will provide documentation to confirm or contradict this
allegation. DIA GC will provide an opinion when further details are provided as
part of the Preliminary Review Report.

Suggest that the statement be revised to: "Specifically, DIA documentation did
not adequately support the obligation of funds totaling $8 million on a MIPR for
delivery after the appropriation availability period, which may violate the Bona
Fide Needs statute".

This more properly accords with the audit statement (Appropriation Purpose
paragraph, page 7, line 14) "However, DIA did not maintain in their acquisition
files adequate documentation to justify the appropriation that was used to fund
the four MIPRs (and two modifications). Therefore, we could not determine
whether the MIPRs complied with 31 U.S.C. 1301, "Application," which states
that appropriations must be applied only to the objects for which the
appropriations were made except as otherwise provided by law,

Audit Report Section A. Use of MIPRs for the Procurement of Goods and
Services.

Use of Funds Section.

Summary Findings Statement.

Nonconcur with the findings summary statement:



                                                                                6




                                       35 

         DIA did not properly manage its financial resources. Specifically, DIA
       issued 15 MIPRs and 16 modifications, totaling $2526 million, without
       adequate documentation to show that the funds were available".
       (Section A. Use of MIPRs for the Procurement of Goods And Services
       Use of Funds, page 7, first sentence).

Nonconcur with the implication that MIPRs were issued without adequate funds
being available. Funds were available, just not properly aligned. This is stated
in the Deputy Comptroller's explanation of the systemic deficiencies (A. Use of
MIPRs for the Procurement of Goods and Services, Use of Funds, Availability of
Funds, page 8, second paragraph). It states "In order to override the accounting
system and process the purchase request, the DIA budget analyst validates that
funds are available prior to initiating the change and approves the IOU to keep
the process moving, because target changes are only made about every 2
weeks".

Suggest that the statement be revised to: "DIA systemic discrepancies
prevented it from updating its financial accounting records in a timely fashion.
Funds were available in the appropriation, just not in the specific commodity
within the accounting system".

This more properly accords with the audit statement (A. Use of MIPRs for the
Procurement of Goods and Services, Use of Funds, Availability of Funds, page 8,
second paragraph) which states "In order to override the accounting system and
process the purchase request, the DIA budget analyst validates that funds are
available prior to initiating the change and approves the IOU to keep the
process moving, because target changes are only made about every 2 weeks".

Audit Report Section A. Use of MIPRs for the Procurement of Goods and
Services.

Use of Funds Section.

Appropriation Purpose Paragraph.

Nonconcur with the findings paragraph statement:

      "DIA transferred funds for procurements that appear to be out of the
      scope for the purpose of the appropriation. (Section A, Use of MIPRs for
      the Procurement of Goods And Services, Use of Funds, page 7,
      Appropriation Purpose, first sentence).

Suggest changing to: "DIA may have inappropriately used the Operation and
Maintenance (O&M) appropriation to fund four MIPRs and two modifications




                                                                                   7




                                        36 

transactions". DIA documentation did not provide adequate support for the
propriety of funds used".

This more properly accords with the audit statement (Section A, Appropriation
Purpose paragraph, page 7. line 14) "However, DIA did not maintain in their
acquisition files adequate documentation to justify the appropriation that was
used to fund the four MIPRs (and two modifications). Therefore, we could not
determine whether the MIPRs complied with 31 U.S.C, 1301, "Application," which
states that appropriations must be applied only to the objects for which the
appropriations were made except as otherwise provided by law.

Audit Report Section A, Use of MIPRs for the Procurement of Goods and
Services.

Use of Funds Section.

Bona Fide Needs Finding Paragraph.

Nonconcur with the finding statement:

       "DIA obligated $8 million for the purchase of office furniture in an
       apparent violation of 31 U.S.C. 1502(a), "Balances Available," sometimes
       called the Bona Fide Needs statute". (Section A. Use of MIPRs for the
       Procurement of Goods And Services, Use of Funds, page 8, Bona Fide
       Needs paragraph, first sentence).

Nonconcur with the designation that DIA obligated in apparent violation. The
audit does not provide adequate detailed support that the obligation action was
invalid. Preliminary review indicates that the obligation was to acquire items to
satisfy a current need. Delivery was acceptable at any time. Thus the
transaction met the bona fide rule requiring the obligation meet the need of the
period available for obligation. The preliminary Antideficiency Act violation
review, currently in progress, will further investigate this transaction and the
required resulting report will provide documentation to confirm or contradict this
allegation. DIA GC will provide an opinion when further details are provided as
part of the Preliminary Review Report.

Suggest that the statement be revised to: "Specifically, DIA documentation did
not adequately support the obligation of funds totaling $8 million on a MIPR for
delivery after the appropriation availability period, which may violate the Bona
Fide Needs statute".

This more properly accords with the audit statement (Appropriation Purpose
paragraph, page 7, line 14) "However, DIA did not maintain in their acquisition
files adequate documentation to justify the appropriation that was used to fund
the four MIPRs (and two modifications). Therefore, we could not determine



                                                                                8




                                        37 

whether the MIPRs complied with 31 U.S.C. 1301, "Application,'' which states
that appropriations must be applied only to the objects for which the
appropriations were made except as otherwise provided by law.

Audit Report Section A. Use of MIPRs for the Procurement of Goods and
Services.

Use of Funds Section.

Availability of Funds Finding Paragraph.

Nonconcur with the findings statement:

      "DIA certified that the funds were available for the procurement and
      issued 15 MIPRs and 16 MIPR modifications totaling approximately
      $252.6 million under an "IOU" concept. DIA accounting personnel
      annotated the purchase requests for the MIPR stating: "insufficient funds,"
      "IOU needed," or "IOU authorized." There was no documented evidence
      to indicate when and where the funds were coming from to cover the
      procurements, DIA use of the IOU concept could result in Antideficiency
      Act violations if DIA incurred obligations prior to the funding being
      available. (Section A. Use of MIPRs for the Procurement of Goods And
      Services, Use of Funds, page 8, Availability of Funds, first sentence).

Nonconcur with the implication that MIPRs were issued without adequate funds
being available. Funds were available, just not properly aligned by expenditure
code. This is stated in the Deputy Comptroller's explanation of the systemic
deficiencies (A. Use of MIPRs for the Procurement of Goods and Services, Use
of Funds, Availability of Funds, page 8, second paragraph). It states "In order to
override the accounting system and process the purchase request, the DIA
budget analyst validates that funds are available prior to initiating the change
and approves the IOU to keep the process moving, because target changes are
only made about every 2 weeks".

Suggest that the statement be revised to: "DIA systemic discrepancies
prevented it from updating its financial accounting records in a timely fashion
Funds were available in the appropriation, just not in the specific commodity
within the accounting system".

This more properly accords with the audit statement (Section A. Use of MIPRs
for the Procurement of Goods and Services, Use of Funds, Availability of Funds,
page 8, second paragraph) which states "In order to override the accounting
system and process the purchase request, the DIA budget analyst validates that
funds are available prior to initiating the change and approves the IOU to keep
the process moving, because target changes are only made about every 2
weeks".



                                                                                  9




                                        38 

Audit Report Section A. Use of MIPRs for the Procurement of Goods and
Services.

Recording Accounting Transactions Section.

Advanced Payments Finding Paragraph.

Nonconcur with findings statement:

       "DIA improperly recorded transactions in the accounting system relating to
       MIPRs issued under the Economy Act. Specifically, DIA incorrectly
       recorded payments it made in advance for goods or services". (Section
       A. Use of MIPRs for the Procurement of Goods and Services, Recording
       Accounting Transactions, page 9, Advanced Payments paragraph).

 Nonconcur that the transactions described in the report are advanced
 payments. Per the DIA GC: 'The type of "advance payment" discussed in the
audit report, acceptance by the receiving agency of a MIPR, does not appear to
comport with the definition of "advance payment" cited in the GAO Red Book
(see C. Advance Payments on page 5-50). Furthermore, the audit's specific
reference (see 2nd para of Advance Payments, page 9), to advance payments
under the Economy Act as being subject to the Payment Procedures of
DoDFMR. Volume 11A. Chap 3, only applies to the payment of actual billings by
the order filling agency (DoDFMR, Volume 11A para 030502). From the
information presented, it appears that all of DIA's MIPRS were funded by either
direct or reimbursable funds without the need for the servicing agency to make a
billing. Consequently, the requirement to record "advance payments" IAW DoD
FMR, Volume 4, Chap 5 appears to be not applicable to our MIPR transactions".

Suggest this entire paragraph be eliminated.

Audit Report Section A. Use of MIPRs for the Procurement of Goods and
Services.

Recording Accounting Transactions Section.

Deobligation of Funds Finding Paragraph.

Concur.

Audit Report Section A, Use of MIPRs tor the Procurement of Goods and
Services.

Recommendations




                                                                             10




                                       39 

A, We recommend that the Director, Defense Intelligence Agency:

1. Develop and maintain written acquisition plans for intergovernmental
procurements when the total procurement cost, including option years, equals or
exceeds the established threshold for preparing written acquisition plans. Also,
ensure each plan considers the criteria for the acceptance of goods and services
and requires signatures for coordination and approval.

DIA/AE Comments: "Concur: As noted by the IG, DIAM 44-2 requires
documentation of a written acquisition plan for all MIPRs estimated at $1 million
or more, AE has recently contracted for a number of Subject Matter Experts
(SME's) who are working with the directorates to review all procurement
requirements, including MIPR's, to ensure that adequate documentation is
prepared, including written acquisition plans. In addition, during the review and
approval process, all outgoing MIPR's will receive the review by an AE
contracting officer to ensure that such plans are properly prepared and include
acceptance criteria and proper signatures prior to release and certification of
funds by FE. In addition during our annual risk assessment for the Agency, AE
determined that our MIPR process was a risk area and to mitigate this risk the
MIPR process will be transferred back to FE."

2. Establish procedures and controls to ensure that procurements using the
Economy Act are in the best interest of the Government, Specifically:

a, Require that cost comparisons between contractor and Government
performance for goods and services be prepared prior to contracting

b. Prepare the required determination and finding and ensure that the approval is
documented.

DIA/AE Comments: "Concur: As part of the review and support provided by both
the SME's noted above and review by AE's contracting officers, all outgoing
MIPR's will be reviewed to ensure that such comparisons have been performed.
In addition, all MIPR's will include written Determinations and Findings (D&F's)
which will be reviewed by AE contracting officers prior to release and certification
of funds by FE "

3. Conduct a preliminary review for the six potential Antideficiency Act violations,
listed in Appendix D, involving the inappropriate use of the Operation and
Maintenance appropriation and MIPR HHM402-4-0272 for the potential violation
of the Bona Fide Needs statute in compliance with the reporting requirements in
DoD Regulation 7000.14-R, volume 14, "Administrative Control of Funds and
Antideficiency Act Violations." Provide a copy of the preliminary review report to
the DoD Office of Inspector General.




                                                                                 11




                                        40 

Concur. DIA/FE has initiated the preliminary review for the six potential ADA
violations. The report will be completed within the timeframes required by DoD
7000.14-R, Volume 14, Chapter 3, and a copy will be provided to the DOD IG.

4. Discontinue use of the "IOU" process, which allows funds to be obligated
without sufficient documentation to show that funds are available.

Concur. DIA/FE has already terminated the "IOU" process. An operation
instruction is being written that will control funds certifications at a higher level
pending target changes. This process will be rewritten with the adoption of the
FMS/FACTS which will allow us to overcome this systemic discrepancy at the
field level prior to funds certification.

5. Establish and implement procedures to record payments made in advance of
receipt of goods and services as assets, and recognize expenses when the
goods and services are received.

Nonconcur based on the DIA GC opinion that these transactions do not qualify
as advanced payments.

6. Establish procedures and controls to ensure that funds obligated under the
authority of the Economy Act are deobligated at the end of each fiscal year if the
servicing agency has not provided the services or entered into an authorized
contract to provide the goods or services.

Concur. Procedures and controls to ensure that funds are deobligated at the
end of each fiscal year are being enhanced and will continue to be utilized for the
closeout cycle of fiscal year 2007. Currently, the Tri-annual Joint Reviews
conducted by ACO facilitate this deobligation. Additionally for FY07 a data
cleansing/data preparation effort that is underway to facilitate the implementation
of the Agency's new financial system FMS/FACT will further enhance agency
deobligation efforts.




                                                                                 12




                                        41 

 Audit Report Section B.      Internal Controls over Incoming Economy Act


Findings Statements.

Concur
Recommendations

B. We recommend that the Director, Defense Intelligence Agency:

1. Bill and collect reimbursable customer orders in the timeframe directed in the
DoD Regulation 7000.14-R. Involve higher-level management in the collection
process when necessary.

Concur. In response to the conditions similar to those identified during the audit,
we re-engineered the customer order process and currently process bills
monthly, and follow up weekly on delinquent billings. Higher-level management
is engaged as needed. Also, we have instituted a no-check 1080 bill process to
automatically collect funds from DoD customers. Additionally, we have re-visited
prior year accounts and processed no check 1080 billings to collect previously
uncollectible accounts receivable.

2. Begin aging and reporting intragovernmental receivables in accordance with
the DoD Regulation 7000.14-R.

Concur. Limitations of the current financial system do not allow full aging at the
desired level. However, until such time that the new financial system can
facilitate this requirement, we are currently utilizing an Access database to age
receivables.

3. Establish policy and procedures to;

a. Require that the Services be reimbursed when the Defense Intelligence
Agency details its assigned military members outside the DoD.

Concur. DIA has formally established reimbursable policy for details of military
members outside the DoD. DIA informal policy is to establish a Memorandum of
Agreement when detailing military members outside the DoD. Based on whether
the detail is of benefit to DIA or not, a decision is made as to whether the
agreement is to be reimbursable. DoD 7000.14, Volume 11A, Chapter 6 would
be the guidance used to determine reimbursable rates.

b. Continuously monitor incoming reimbursable orders obligation and expenditure
rates to enable the timely return of unneeded funds to the requesting agency.
Also, research the $623,225 that is currently obligated under incoming
reimbursable customer order Q3038R4-04 to determine if it is needed to



                                                                               13




                                         42 

                                                                                        Final Report
                                                                                         Reference




complete the performance of this customer order. If it is not needed, initiate
appropriate action and documentation to return the funds to the requestor.

Concur.     As a part of the re-engineered customer order process, we
continuously monitor incoming reimbursable orders to enable the timely return of
unneeded funds.       The customer order cited above (Q3038R4-04) was
researched, has been fully obligated, has a current ULO balance of $9373.21,
and has an unused balance of $0.00. Therefore, there are no funds to return.

c. Bill benefiting organizations for contracting costs associated with reimbursable
orders (and overhead costs, if these costs are significant and it is cost effective).

Non-Concur:      Billing for services that DIA receive appropriations for is
supplementing an appropriation which DIA is not authorized to do. And, such
fees would be immaterial to financial statements and cost prohibitive to track,
account for, and bill. The audit does not show who the contracting costs                Information
support. For contract administration costs within a DoD component or to another
DoD component, contract administration costs are not to be charged (Volume
                                                                                        Added
11A, chapter 1, paragraph 010203E6 - "Contract administration costs are not to
be charged within a DoD component or to another DoD Component when
funding for such costs are included in the mission funding of the performing DoD
entity").

d. Formally accept, in writing to the requesting agency, all incoming
intragovernmental orders.

Concur: DIA has and will continue to approve in writing all incoming MIPR's via
a DD Form 448-2. These are returned to the requesting activity to confirm our
acceptance of such requirements".




                                                                                  14




                                         43 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Marvin L. Peek
D. David Bose
Jeffrey L. Gongola
Dorothy L. Jones
Jamel Odom
Ann L. Thompson
